                           WHITE PAPER



Strengthening Advertising Mail
by Building a Digital
Information Market
December 11, 2013




                     Report Number: RARC-WP-14-002
                                                                EXECUTIVE SUMMARY

          Strengthening Advertising Mail
      by Building a Digital Information Market
Advertising mail is a significant source of
                                                                     Highlights
revenue for the Postal Service. It
generated $16.9 billion in fiscal year 2013.          Maintaining the health of advertising
Moreover, advertising mail has so far                 mail is a strategic imperative for the
maintained its market share, despite                  Postal Service.
radical changes in the advertising market.
However, this resilience may not continue             Advertising mail has important
forever. Some digital methods of                      strengths, particularly tangibility.
advertising offer more robust ways than               However, the ability to build a two-way
direct mail to gather recipient feedback.             link to recipients is not as robust as in
                                                      digital advertising.
The Postal Service cannot afford to be
complacent.                                           The Postal Service could digitally
                                                      enable hard copy mail by building a
A key part of advertising is gaining                  digital information market. Mailers
individuals’ attention, and the study of              would place a code or symbol on
attention and its role in the economy is              advertising mail pieces. Recipients
known as attention economics. The                     would be rewarded for scanning the
U.S. Postal Service Office of Inspector               code with their smart phone and
General asked two experts in attention                providing feedback.
economics, Marshall Van Alstyne of
Boston University and Geoff Parker of                 The information market would
                                                      encourage recipients to share their
Tulane University, to analyze the
                                                      preferences, using clear opt-in and
advertising mail market and suggest ways              privacy guidelines. It could provide a
to strengthen advertising mail.                       “win-win-win”: increasing the value of
                                                      the mail to the mailer, recipient, and
They identified the lack of a robust digital          Postal Service.
feedback loop between recipients and
senders as a critical gap. They suggest
expanding the Postal Service’s hard copy platform for advertising mail into a digital
information market. Participation by recipients would be voluntary, and there would be
clear privacy guidelines. Recipients could scan a code or symbol on advertising mail
pieces with their smart phones or tablets and access an interactive system for providing
feedback on the mail piece. Those recipients who gave feedback would receive an


U.S. Postal Service Office of Inspector General                                      December 11, 2013
                                                  i
RARC-WP-14-002                                         Strengthening Advertising Mail by Building a Digital Information Market



Information Coupon (Info-Coupon) that could be redeemed for merchandise or services
from a variety of vendors participating in the program.

A digital information market would improve the value of the advertising mail channel for
senders, recipients, and the Postal Service. Mailers could use the feedback to
determine recipients’ preferences about particular forms of advertising. This would allow
mailers to target more precisely and improve their return on investment. Recipients
would be rewarded for participating in the market through the Info-Coupon. The direct
mail they received would also better reflect their interests. The Postal Service would
benefit from the improved value of the advertising mail channel. If the market were well
structured, its creation could be a win-win-win for everyone.




U.S. Postal Service Office of Inspector General                                                           December 11, 2013
                                                  ii
RARC-WP-14-002                                                   Strengthening Advertising Mail by Building a Digital Information Market



                                                  Table of Contents
Three Current Strengths of Advertising Mail ................................................................... 1

The Value of the Feedback Loop .................................................................................... 2

Two-Sided Markets, Attention, and the Postal Platform .................................................. 3

Building a Digital Information Market ............................................................................... 4

Win-Win-Win ................................................................................................................... 5




                                                     Appendix
One Approach .............................................................................................................. 7




U.S. Postal Service Office of Inspector General                                                                     December 11, 2013
                                                               iii
RARC-WP-14-002                                              Strengthening Advertising Mail by Building a Digital Information Market




          Strengthening Advertising Mail
      by Building a Digital Information Market
Advertising mail, also known as direct mail, is one of the Postal Service’s core products.
Standard Mail, which includes both advertising and nonprofit solicitations, generated
$16.9 billion in revenue and represented more than half of mail volume in fiscal year
(FY) 2013. 1 As First-Class Mail continues to decline, Standard Mail will become
increasingly important to the sustainability of the Postal Service’s network. 2

Three Current Strengths of Advertising Mail
Surprisingly, despite the radical disruption of the advertising market unleashed by the
Internet, advertising mail has held its market share against other forms of advertising
remarkably well. The digital revolution has
significantly disrupted many traditional vehicles       Despite the radical disruption
for hard copy advertising, such as newspapers           of the advertising market,
and magazines, yet Standard Mail revenue has            advertising mail has held its
held steady at approximately 10 percent of total        market share remarkably
                                             3          well.
advertising spending for the past 20 years.

The secret of this success lies in advertising mail’s three distinct characteristics:

     1. Tangibility – Many recipients like to hold or touch catalogs, coupons, and offers.
        This tangibility is a significant asset. Neurological research has shown that the
        brain has a stronger physical reaction to hard copy mail than the same
        information presented electronically. 4 Advertising mail shares tangibility with
        other forms of print media.

     2. Targetability – Mailers can send their ads to customers with whom they have a
        previous business relationship, or they can seek prospective new customers by
        using demographic information to select mail recipients. They can also send ads
        to recipients in a particular geographic area, which is especially useful for local
        businesses who are trying to attract and retain local customers. Targetability is


1
  U.S. Postal Service, Form 10-K Fiscal Year 2013, http://about.usps.com/who-we-are/financials/10k-
reports/fy2013.pdf, pp. 23-24.
2
  Although the vast majority of advertising mail is sent via Standard Mail, First-Class Mail also contains some
advertisements and may offer an additional opportunity.
3
  U.S. Postal Service, “Responses of the United States Postal Service to Questions 1-9 of Presiding Officer’s
Information Request No. 1,” Postal Regulatory Commission Docket No. R2013-11, October 30, 2013,
http://www.prc.gov/Docs/88/88168/POIR.1.Resp.pdf, 4(c).
4
  U.S. Postal Service Office of Inspector General, Enhancing Mail for Digital Natives, Report No. RARC-WP-14-001,
November 18, 2013, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-14-
001_enhancing_mail_for_digital_natives.pdf, p. 5.


U.S. Postal Service Office of Inspector General                                                                December 11, 2013
                                                        1
RARC-WP-14-002                                        Strengthening Advertising Mail by Building a Digital Information Market



           also a feature of digital media. Other forms of advertising are targetable to a
           lesser degree.

     3. Measurability – Mailers collect data on who responded to their advertising
        campaign. Some mailers, or third party firms, merge response and purchasing
        information with other customer data to predict specific customer responses to
        different campaigns. The sophistication of measurements varies. At the high end,
        measurability can involve complex analytics, using proprietary company data and
        software. More basic forms of measurability can simply involve counting the
        number of coupons redeemed at a local shop. Digital media is highly measurable,
        as advertisers can easily create a two-way link to gather feedback from those
        they target.

Direct mail’s unique combination of tangibility, targetabilty, and measurability creates a
strong product that has been resilient, despite the fast-paced growth of newer
advertising channels. However, the Postal Service cannot afford to be complacent
about the future of advertising mail. As individuals become increasingly comfortable with
digital media and digital advertising channels continue to develop, paper advertising
sent through the mail may start to lose market share to other forms of media. Moreover,
because direct mail is tangible, it has a greater physical presence in people’s lives. This
presence is often positive, but poorly targeted, unwanted advertising can appear
                                  wasteful to recipients and lead to concerns about mail’s
                                  environmental impact.
   Direct mail’s combination
   of tangibility, targetability,
                                    Finally, the two-way link that can be easily established
   and measurability creates
   a strong product.                when a digital ad is opened is a real benefit that does
                                    not exist today with direct mail. Mailers receive inquiries
                                    or orders from a small percentage of mail respondents,
but in most cases, they do not know how an individual recipient has reacted to their ad.
Is the offer interesting, but the timing wrong? Does the customer want more options or
information on other products or services? Or is the customer just not interested at all;
was the envelope even opened?

The Postal Service and the direct mail community can strengthen advertising mail and
improve the experience for both senders and recipients by developing a stronger
feedback loop that provides more detail on recipients’ preferences, allowing for more
precise customer targeting. This feedback loop could increase mailer revenues and
customer satisfaction, while simultaneously maximizing postal revenues and minimizing
unwanted mail and waste.

The Value of the Feedback Loop
Information about customer preferences is critical to advertisers. It allows them to target
their advertising more precisely to those customers who are more likely to buy
something and avoid wasting advertising on those who do not appear interested. Digital
advertising offers several options to provide two-way feedback on specific advertising
campaigns. For example, email advertisers can determine not only whether recipients

U.S. Postal Service Office of Inspector General                                                          December 11, 2013
                                                  2
RARC-WP-14-002                                                Strengthening Advertising Mail by Building a Digital Information Market



respond to their email offers but also whether they open
the emails. Search engines, social media, and other new         The two-way feedback
                                                                from mail is not as robust
mechanisms induce customers to reveal information
                                                                as some digital feedback
about their interests and what they want to buy. Search         options.
engines can provide advertisers precise information on
their click rates for various search terms, allowing a
business to buy only those terms that are likely to result in customer responses.
Cookies allow advertisers to follow customers across the web, so advertisers can see
their customers’ other interests and develop profiles about them. This behavioral
tracking has been controversial and spurred “Do Not Track” campaigns.

Mailers of hard-copy advertisements expend significant effort to target mail to those
most likely to buy, but the two-way feedback loop from mail is not as robust as some
digital feedback options. Typically, advertising mailers only receive feedback when
customers attempt to place an order or make a donation, with response rates typically
running at 2 to 6 percent. 5 There is no information flowing back to the mailer from the
remaining 94 to 98 percent of targeted customers. Although the mailer may know that
the recipient did not respond to a specific campaign, the mailer has no idea know why.
At present, customers who want more information about a certain item or service have
limited ways to make mailers aware of their wishes. This “information asymmetry”
reduces the value of the advertising mail network. If mailers had better access to
recipients’ feedback on specific mailings, they could better target their mail, sending
more mail that is of value to the recipients and less that is of no value.

Two-Sided Markets, Attention, and the Postal Platform
To understand how enhancing the feedback loop could benefit senders, recipients, and
the Postal Service, the concept of a two-sided market is important. A two-sided market
is a market that joins two distinct types of customers in a way that takes advantage of
network effects and creates value. 6 The company or group linking the two customers is
called a platform. In advertising, two-sided markets are common. Newspapers and
magazines sell to readers and advertisers. Broadcast television serves both viewers
                                   and advertisers. The platform often mediates between
  The Postal Service is an         the two sides of the market, and sometimes
  example of a two-sided           participation by one side of the market is discounted or
  market platform.
                                   even free in order to encourage participation. For
                                   example, broadcast television is free to viewers and
paid for by advertisers, and for many years, newspaper delivery was heavily discounted
to build circulation numbers and raise advertising rates.


5
 The Direct Marketing Association, DMA 2013 Statistical Factbook, August 2013, and industry interviews.
6
 Often one or both sides of the market benefit from the presence of more participants on the other side of the market.
For a discussion of two-sided markets, see Jean-Charles Rochet and Jean Tirole, “Platform Competition in Two-
Sided Markets.” Journal of the European Economic Association, Vol. 1 (2003), pp. 990–1029. For more information
on the role of network effects, see Geoffrey Parker and Marshall W. Van Alstyne, “Two-Sided Network Effects: A
Theory of Information Product Design,” Management Science, Vol, 51, No. 10, (September 29, 2010), pp. 1494–
1504, available at SSRN at http://ssrn.com/abstract=1177443.


U.S. Postal Service Office of Inspector General                                                                  December 11, 2013
                                                          3
RARC-WP-14-002                                               Strengthening Advertising Mail by Building a Digital Information Market



The Postal Service is also an example of a two-sided market platform. 7 Senders pay for
advertising mail, but ultimately senders use the direct mail medium because they care
about reaching recipients and getting their attention. Advertisers track the response
rates and return on investment (ROI) from campaigns. If recipients stopped paying
attention to advertising mail, ROI would drop and advertisers would soon disappear
from the mail. It is in the interest of the Postal Service and senders that recipients find
advertising mail relevant and respond.

The study of individuals’ attention and its importance in the economy is called attention
economics. In this field, attention is considered a scarce commodity, one whose role
has been fundamentally altered by the Internet. Recognition of the value of this
commodity, and the development of techniques to gain control over it, are providing new
insights into advertising markets.

The U.S. Postal Service Office of Inspector General asked two prominent experts in
two-sided markets and attention economics, Marshall Van Alstyne of Boston University
and Geoff Parker of Tulane University, to analyze the advertising mail market and
suggest ways to strengthen the Postal Service’s advertising mail product. Building on
new research in the area of attention economics and interviews with key stakeholders in
the mailing industry as well as on their previous work, Van Alstyne and Parker, together
with Tushar Shanker, a Ph.D. student at Boston University, present an interesting
approach and some fresh perspectives on the enhancement of advertising mail. A
paper describing the results of their research appears in the appendix.

Building a Digital Information Market
Van Alstyne, Parker, and Shanker identify the lack of a robust feedback loop, or two-
way link, as an important gap in the business model underlying the Postal Service’s
strategic approach to advertising mail. They
propose that the Postal Service move beyond               Van Alstyne, Parker, and
operating solely as a platform for hard copy mail         Shanker propose that the Postal
to act also as a digital platform for information         Service move beyond operating
that mail recipients volunteer to provide and             solely as a platform for hard
share. Participation by recipients on the digital         copy  mail.
platform would be strictly voluntary. The Postal
Service would only release information to mailers as authorized by mail recipients,
                                          under clear privacy guidelines.
    The authors suggest a                         To incentivize the establishment of a two-way
    redeemable Information Coupon
                                                  link, the authors suggest a redeemable
    (Info-Coupon), which would
    reward mail recipients for giving             Information Coupon (Info-Coupon), which would
    feedback.                                     reward mail recipients for giving feedback.
                                                  Participating mailers would use some type of

7
  For a discussion of mail as a two-sided market, see Christian Jaag and Urs Trinkner, “Pricing in competitive two-
sided mail markets,” in Competition and Regulation in the Postal and Delivery Sector, edited by Michael A. Crew and
Paul R. Kleindorfer (Massachusetts: Edward Elgar Publishing, Inc., 2008), pp. 136-149.


U.S. Postal Service Office of Inspector General                                                                 December 11, 2013
                                                         4
RARC-WP-14-002                                              Strengthening Advertising Mail by Building a Digital Information Market



code or symbol — such as a Quick Response (QR) code, Image Recognition code, or
Intelligent Mail Barcode — on the front of the mail piece. Recipients could scan the code
or symbol and access an interactive system on their smartphone or tablet where they
could provide information about their preferences and their response to the mail piece.
In return for their feedback, recipients would receive a digital Info-Coupon. The Info-
Coupon would be in the form of points redeemable for merchandise from a variety of
vendors.

Mailers could use the feedback to determine whether recipients strongly liked or disliked
receiving particular forms of advertising. This feedback would increase advertising
mail’s measurability — allowing more precise targeting, improving direct mail’s ROI, and
strengthening the value of the direct mail channel. Recipients could choose whether to
participate in the information market and digitally reveal information about their
preferences. Those who did participate would receive compensation through the
mechanism of the Info-Coupon. As conceived by Van Alstyne, Parker, and Shanker, the
information market could begin with a simple digital feedback loop. In time, the Postal
Service could enhance it by developing new applications and soliciting other types of
customer information.

The study of information mechanisms such as the feedback loop started as a response
to the problem of unwanted spam cluttering the email channel, drowning out the ability
of recipients to pay attention to advertising messages from responsible senders and
personal emails. To address this problem, spam filters were developed, and prominent
computer experts such as Bill Gates suggested charging for email. 8 Research suggests
that a feedback loop is more economically efficient than filters or blunt “Do Not Spam” or
“Do Not Mail” lists for ensuring that customers receive the information they want. A
perfect filter can filter out wanted information, depressing potential economic growth. 9 In
the case of advertising mail, some advertising information is desired and useful to
customers. However, if recipients have to review and reject many other mailpieces
before finding what they want, some may decide not to give any mailpieces their
attention. As a result, mail recipients may miss opportunities for purchasing, while
mailers may miss opportunities to sell more goods and services. A feedback loop allows
mailers and interested recipients to find one another more easily.

Win-Win-Win
While direct mail remains an effective advertising medium, it could be significantly
enhanced by the creation of a digital information market tied to hard-copy mail. Such a
market would provide a means to add the measurability of digital advertising while

8
  Saul Hansel, “Gates Backs E-Mail Stamp in War on Spam,” The New York Times, February 2, 2004,
http://www.nytimes.com/2004/02/02/technology/02spam.html_.
9
  The work of Thede C. Loder, Marshall Van Alstyne, and Rick Wash suggests that applying a signaling and
screening mechanism for email can create more value for consumers than depriving consumers of all information,
including advertising, which they would have found helpful. See Thede C. Loder, Marshall W. Van Alstyne, and Rick
Wash, “Information Asymmetry and Thwarting Spam,” (January 14, 2004), available at SSRN at
http://ssrn.com/abstract=488444 or http://dx.doi.org/10.2139/ssrn.488444. In their paper in the appendix,
Van Alstyne, Parker, and Shanker assert that this principle can also apply to hard-copy mail.


U.S. Postal Service Office of Inspector General                                                                December 11, 2013
                                                        5
RARC-WP-14-002                                               Strengthening Advertising Mail by Building a Digital Information Market



improving targetability and keeping the tangibility that makes hard-copy mail so
successful.
                                                                                Direct mail could be
Senders would benefit from enhanced targeting and          significantly enhanced by
improved information about customer preferences.           the creation of a digital
Tightening budgets make reducing costs for                 information market tied to
effective advertising list management and                  hard-copy mail.
prospecting even more important today than in the
past. With better-targeted lists and higher response and conversion-to-order rates, a
static budget can yield more orders and a higher ROI. Recipients would benefit from
advertising mail targeted more precisely to their interests as well as the existence of a
market to compensate them for revealing their preferences. 10 The Postal Service would
benefit from a more robust, higher-value advertising mail product. This is the essence of
a win-win-win solution.

The proposal from Van Alstyne, Parker, and Shanker is one potential solution to digitally
enable direct mail and minimize information asymmetries, but there are others under
development by private business, some in discussion with senior management at the
                                   Postal Service. 11 The Postal Service, with its
  Closing the information          reputation as the most trusted public agency and a
  feedback loop would yield        centuries-long track record of guaranteeing privacy
  great benefits.                  and prosecuting security breaches, is well positioned
                                   to be an honest, trusted mediator and custodian of
customer preferences. It could determine the rules for participation in and enforcement
of the system, with clear guidelines and robust privacy policies.

The Postal Service is also the most appropriate entity to investigate and conduct
additional research in this area. Closing the information feedback loop to better
understand and act on what mail recipients want to receive would yield great benefits,
not only for the participants in the postal market, but also for the postal network and the
products the Postal Service offers.




10
   Further, the information feedback loop can give users more control over their ecommerce metadata and hence,
better privacy protection.
11
   Industry stakeholder interviews, August 2013, and Postal Service executive and staff interviews, September 2013.


U.S. Postal Service Office of Inspector General                                                                 December 11, 2013
                                                         6
RARC-WP-14-002                                        Strengthening Advertising Mail by Building a Digital Information Market



Appendix                         One Approach
The following paper, “A Redeemable Information Coupon Mechanism for Advertising
Mail: One Strategy for a Postal Information Ecosystem” by Marshall Van Alystyne, Geoff
Parker, and Tushar Shanker presents one approach for building a digital information
market for advertising mail.




U.S. Postal Service Office of Inspector General                                                          December 11, 2013
                                                  7
A Redeemable Information Coupon
 Mechanism for Advertising Mail

     Marshall Van Alstyne, Geoff Parker, Tushar Shanker

                            For:
                United States Postal Service
                Office of Inspector General

                    December 11, 2013
Redeemable Info-Coupons                                                                                                             Van Alstyne, Parker, Shanker


TABLE OF CONTENTS
INTRODUCTION ............................................................................................................................................................................ 2
1. OVERVIEW OF ADVERTISING MARKETS AND ADVERTISING MAIL ............................................................................ 2
2. ISSUES WITH DIRECT MAIL ADVERTISING ...................................................................................................................... 4
    A.       OLD BUSINESS MODEL.................................................................................................................................................. 5
    B.       GIVING RECIPIENTS A CHOICE ..................................................................................................................................... 5
3. STAKEHOLDERS IN THE DIRECT MAIL SYSTEM .............................................................................................................. 6
4. PROPOSED SOLUTION: REDEEMABLE INFO-COUPONS ................................................................................................. 7
5. BENEFITS OF REDEEMABLE INFO-COUPONS ................................................................................................................ 10
    A.       RECIPIENT PARTICIPATION ........................................................................................................................................ 11
    B.       AN EFFICIENT INFORMATION ECOSYSTEM.............................................................................................................. 11
    C.       COMPLEMENTARY SERVICES...................................................................................................................................... 12
6. THE RIC MECHANISM ......................................................................................................................................................... 14
    A.       PARTICIPATION INCENTIVES...................................................................................................................................... 14
    B.       ENFORCEMENT MECHANISMS ................................................................................................................................... 16
    C.       CHOICE OF QR CODE/OTHER TECHNOLOGIES OVER INTELLIGENT MAIL BARCODE ....................................... 16
7. OPTIONS FOR MONETIZATION OF THE RIC SYSTEM .................................................................................................. 17
8. PROBLEMS WITH POTENTIAL ALTERNATIVE APPROACHES ..................................................................................... 17
    A.       PRICE DISCRIMINATION BY ZIP CODE ...................................................................................................................... 18
    B.       DO-NOT-MAIL LISTS................................................................................................................................................... 18
    C.       STANDARD MAIL PRICE INCREASE ........................................................................................................................... 18
    D.       MAILER COUPONS ........................................................................................................................................................ 18
9. CONCLUSION .......................................................................................................................................................................... 18
10. REFERENCES ....................................................................................................................................................................... 21
AUTHOR CONTACT INFORMATION ....................................................................................................................................... 23




                                                                                                                                                                                        1
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


INTRODUCTION
In this document we explain how the United States Postal Service (USPS or the Postal
Service) can strengthen its advertising mail product. In FY 2012 Standard Mail, which
includes most advertising mail, accounted for $16 billion in revenues1 and half of total mail
volume.2

Advertising mail has so far held its own against digital competition, yet it is threatened by
business cycles and changing demographics. It declined during the national economic
downturn, and recovery has been slow. 3 Because advertising mail is so important to the
                                              3F




Postal Service, new approaches to strengthen this core mail offering must be considered.

This paper uses Information Economics to explain how to strengthen and enhance
advertising mail. USPS is missing out on a significant competitive edge by not interacting
with customers on the other side of the mail market and taking advantage of customer
touch-points. First we identify information gaps in the current USPS environment. Then we
describe our proposed platform-based solution, which creates an information ecosystem
based on a new kind of reward mechanism we call Redeemable Information Coupons (Info-
Coupons, or RIC).

This ecosystem would bring major benefits to mailers, recipients, and USPS. Yet
participation by mailers and recipients would be strictly voluntary, with clear guidelines
and privacy policies.

To validate these ideas, we interviewed stakeholders across the mailing industry spectrum
in August 2013, including large associations, large mass mailers, targeted mailers, and
printers. We also talked with the Postal Service and industry consultants to gain a
comprehensive perspective. (All interviewers were given anonymity.) We also considered
alternative approaches to improve Standard Mail and found these inadequate.4

1. OVERVIEW OF ADVERTISING MARKETS AND ADVERTISING MAIL
Total advertising revenue in 2010, the most recent year that data are available from the
U.S. Statistical Abstract, was $168 billion, of which Standard Mail accounted for $20 billion
or 12 percent of the total. Online and digital advertising, which included paid search,

1 U.S. Postal Service, Public Cost and Revenue Analysis FY 2012, pp. 1, 3. https://about.usps.com/who-we-
are/financials/cost-revenue-analysis-reports/fy2012.pdf.
2 Postal Regulatory Commission, Annual Compliance Report FY 2012, p. 107. http://www.prc.gov/PRC-

DOCS/UploadedDocuments/2012_PRC_ACD_3108.pdf.
3 USPS OIG (2012), “The State of the Mail.” RARC-WP-12-010,

https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-010.pdf.
4
  The authors gratefully acknowledge Sangeet Choudary for helpful discussion of platforms.



                                                                                                            2
Redeemable Info-Coupons                                                         Van Alstyne, Parker, Shanker


internet classifieds, email, and mobile, accounted for $26 billion or 16 percent. 5 See Figure  4F




1 below.

                          Figure 1: Advertising Revenue by Media in 2010

              Advertising Revenue (in $ Bn) by Media in 2010
                            Source: 2012 US Statistical Abstract, Table 1279


                                       Others, 13.0
                                                                       Standard Mail, 20.6

                 Newspaper, 22.8
                                                                              Online/Digital, 26.0



              Magazines, 15.6




                     Radio, 15.0

                                                                       Television, 54.9




Online and digital advertising grew 34 percent from 2008 to 2011, an average of 10
percent per year.6 Yet with the increasing use of the Internet and mobile applications for
advertising, Standard Mail revenue can grow as well, but it needs to add some of the
capabilities that have made online advertising so attractive.

Standard Mail would become even more valuable to advertisers if it gave them the ability to
target the right potential consumers and to measure the success of both overall advertising
strategies and individual advertising campaigns in different media. Advertisers could then
apply those lessons to future strategies and campaigns. A top barrier to marketing analytics
is differentiating responses across marketing channels. 7         6F




5 U.S. Bureau of the Census, Statistical Abstract of the United States: 2012, p. 785.
http://www.census.gov/prod/2011pubs/12statab/services.pdf.
6 Based on information in the U.S. Postal Service’s 2011 Household Diary Study, Table 5.1. This includes one

year in which Internet advertising fell 3.4 percent. Source: Magna Advertising Group,
http://about.usps.com/studying-americans-mail-use/household-diary/2011/fullreport-pdf/usps-hds-
fy11.pdf.
7 Statistical Fact Book 2013, Direct Marketing Association, New York, NY, p 155.


                                                                                                               3
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


Tracking a given mail campaign has always been relatively straightforward. Advertisers
can code specific promotions including catalogs and coupons. As consumers place orders or
redeem coupons, these source codes and barcodes can generate an aggregate view of buyer
behavior and some information on exactly what individuals or households order.

Yet targeting or identifying consumers who are especially interested in the products or
services offered remains a challenge. Mailers have traditionally used prospecting lists
based on their (or third-party) analyses of individuals’ buying habits, which in turn may be
based on complex algorithms. These algorithms help advertisers decipher consumer
preferences and then consummate the right match between advertisers’ offerings and
consumers’ interests. The USPS engages a great deal with advertisers and third party
intermediaries, including list brokers. But it solicits little feedback from mail recipients. If it
did, this expanded Standard Mail service would go far in helping the Postal Service keep
and expand advertising mail.

Both the technology and the targeting methodologies already exist to enable companies to
engage with consumers and gain access to a wealth of detailed data at the individual level.
What’s needed to make this system work is a “disinterested, secure third party that can act
as an intermediary in the world of secure digital messaging.” 8        7F




Consider the major Internet search firms. They constantly analyze consumer search terms
in order to glean customer preferences. They can determine which words are the most
valuable to which consumers, giving them a remarkably efficient level of targeting. They
then open these words for bidding in an auction mechanism. Advertisers who value their
target consumers’ attention will make the highest bids on the corresponding ad words,
which will give them the top spot on the page of search results. Advertisers who find these
customers less valuable will end up in lower spots.

By engaging directly with both consumers and advertisers, Internet search firms achieve
differential pricing of their ad space. They also make it easier for companies to track their
investment in advertising. If the Postal Service could approach that degree of interaction,
Standard Mail would become far more valuable to advertisers. It could capture a
meaningful additional amount, five to ten percent, of the $26 billion digital advertising
business, while expanding the entire pie by attracting new advertisers.

2. ISSUES WITH DIRECT MAIL ADVERTISING
Our focus is on USPS’s advertising product that includes mail from nonprofit organizations.
We first detail issues that hinder forward progress.


8Urbanski, Al “Donahoe’s Postal Vision” Direct Marketing News, August 1, 2013. Citing a BCG Report.
http://www.dmnews.com/donahoes-postal-vision/article/304971/ (accessed August 20, 2013).

                                                                                                      4
Redeemable Info-Coupons                                                         Van Alstyne, Parker, Shanker


    A. OLD BUSINESS MODEL
As noted in a series of reports from the USPS Office of Inspector General, 9 many companies
                                                                                         8F




are rethinking their business models in light of digitization. By more fully developing its
digital business model, the Postal Service could offer an information-rich advertising
                                             product.
 Stakeholder Interview: “Mail will always
 be there. People will be receiving          Current Standard Mail targets customers
 packages for years to come. The Postal      inefficiently, at a time when advertisers are
 Service can be at the crossroads            looking to improve their targeting. A company’s
 between the physical and digital…”          in-house mailing list may have a response rate
                                             as low as two percent. 10 At that level, even a 50
                                                                                9F




percent improvement moves the needle to only three percent total. Response rates for
prospect lists can run as low as 0.4 percent.

Standard Mail also tends to be one-way and not interactive, unless recipients reply by mail
or visit a store. As a result, physical delivery is gradually losing ground to interactive
electronic delivery, especially for the more efficient mailers. That leaves behind less
efficient, “noisier” advertisers that can increase calls for Do-Not-Mail legislation.

Recipients also have no voice in what they receive from advertisers, potentially
compounding this problem. Moreover, unlike Internet search firms and social networking
                                              sites, USPS gains no data on recipient
 Stakeholder Interview: “The current          preferences or behaviors from which it could
 system presents only very limited            offer new business services. Finally, data
 feedback.”                                   from the responding households would be
                                              vastly more effective if it could be combined
with data from the non-responding 90-plus percent. Without interactivity, the Postal
Service operates at a distinct disadvantage.

    B. GIVING RECIPIENTS A CHOICE
Closely coupled with an inefficient business model is a relative lack of knowledge about the
mail recipients. USPS is the main link between the advertisers and the mail recipients, yet it


9 See, U. S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age, Part 1: Fact
and Trends, February 24, 2011, http://www.uspsoig.gov/sites/default/files/document-library-
files/2013/rarc-wp-11-002.pdf, The Postal Service Role in the Digital Age, Part 2: Expanding the Postal
Platform, April 19, 2011, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-
11-003.pdf, State of the Mail, April 27, 2012, https://www.uspsoig.gov/sites/default/files/document-library-
files/2013/rarc-wp-12-010.pdf, Digital Identity: Opportunities for the Postal Service, May 29, 2012,
http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-011.pdf.
10
   The two percent is a hypothetical example. The DMA Statistical Fact Book 2013 lists a range for house files,
prospect files and type of mailing, p. 52. No house file listed is under 2.4 percent.


                                                                                                               5
Redeemable Info-Coupons                                                      Van Alstyne, Parker, Shanker


realizes much less of the potential value because it does not encourage the latter to interact
with the postal platform.

Every interaction could potentially help USPS learn something about mail recipients and
their preferences. (Do-Not-Mail lists indicate what customers don’t want to receive, but say
nothing about what they do want.) By learning more about customers’ preferences, USPS
                                             could develop postal products that better
  Stakeholder Interview: “…one person’s      match mailers’ services to consumer needs.
  trash is another’s treasure… [There]       Gathering data about consumer preferences,
  needs to be an ability for citizens to say following strict privacy guidelines, would also
  what they get and don’t get.”              give the Postal Service better insights into the
                                             mailer side of the platform. All of this
information would not only give mailers better returns on their investment through
focused targeting, but also develop new sources of revenue for USPS.

3. STAKEHOLDERS IN THE DIRECT MAIL SYSTEM
To understand the potential for improvement in Standard Mail, let’s look closely at the
stakeholders:

Postal Service
USPS uses its core capabilities in physical delivery to offer a postal platform that connects
advertisers with customers. Yet the U.S. population is steadily moving online. By adding
                                             services such as narrower ad targeting and
 Stakeholder Interview: “…Until we close
                                             better feedback, the Postal Service has the
 the loop on the print side, performance
                                             opportunity to retain current advertisers and
 models will lag on print vs. digital.”
                                             attract new ones.

Current and Potential Mailers
Mailings on even the best house lists rarely draw more than a five percent response, and
the average is closer to two percent. Unfocused or badly targeted mailings, such as those
designed to target new prospects, are the equivalent of “spam” that often end up in the
recycle bin with few adverse consequences for bad advertisers – and can cause good ads to
be ignored. At least one startup firm now charges for a service to intercept Standard Mail
and dispose of it before recipients ever see it. 11 Even somewhat targeted mail can lead to
                                                      10F




crowding out effect. For instance, between 1987 and 2011, the average number of weekly




11Marcus Wohlsen, “Inside the Postal Startup That Wants to Stick It to the (Mail) Man,” Wired, Aug 29, 2013,
http://www.wired.com/business/2013/08/outbox.

                                                                                                               6
Redeemable Info-Coupons                                                       Van Alstyne, Parker, Shanker


mail pieces received by households earning above $100,000 has increased 200 percent to
15.9 pieces. 12
              1F




All of this crowding contributes to a low redemption rate for advertising mail. With the
total cost of a well-designed advertisement easily running to more than $1 per piece of
mail, 13 excluding the discounts provided, such costs can quickly add up. Mailers will be
     12F




increasingly eager to “close the loop,” or find new visibility into the returns from their
marketing investments.

Mail Recipients
Obviously, not all recipients see advertising mail as a nuisance. Clearly, mailers are making
                                          some money from customers or they would no
 Stakeholder Interview: “Consumers        longer send mail. But the contrast with online
 don’t always know what they want.        advertising is instructive. While some online
 [They] say one thing, but may want       advertisements are viewed as “spam,” online firms
 another, once they better understand have means of motivating consumers to reveal
 the options…A better interface would their preferences. While search firms analyze
 take this into account…”                 search terms, social media firms garner rich data
                                          on demographics. Consumers willingly (or
unwittingly) provide the data to these entities because they get useful information in
return.

Mail recipients can be motivated to reveal their likes and dislikes on a clear opt-in basis,
which would enable the Postal Service to achieve much better targeting of advertisements.
USPS needs to find a balance between senders’ utility and recipients’ tolerance, so
recipients accept valuable mail without their mailboxes being overloaded.

4. PROPOSED SOLUTION: REDEEMABLE INFO-COUPONS
We believe a “Redeemable Info-Coupon” (RIC) would greatly strengthen USPS’s Standard
Mail offering. RIC is a type of technology embedded in the postage, literally the stamp used
to send mail. It has three special properties. It contains information on the sender; it lets
recipients express their mail preferences; and it contains a time-limited reward that
recipients can redeem. By motivating customers to express their preferences, these
coupons can promote an information ecosystem. USPS would be able to build and control
an efficient and profitable advertising platform.




12 Statistical Fact Book 2013, Direct Marketing Association p. 25. Meanwhile, the number of pieces received by
households earning less than $20,000 has fallen 23 percent.
13 Ibid.


                                                                                                            7
Redeemable Info-Coupons                                                       Van Alstyne, Parker, Shanker


Participation in the coupons would be entirely voluntary for both mailers as well as
recipients. Mailers would be attracted by the possibility of discounted postage rates 14 as          14F




well as the far more powerful targeting services. Recipients would seek rewards from
                                            redeeming the coupons, and they might also
 Stakeholder Interview: “…This is an        appreciate the ability to indicate interest or lack
 active discussion we’re having to try to of interest in particular advertisements.
 get response rates from 2% to 2.1% or
 3% or 5% or higher. 2.1% would be a        Quick Response (QR) codes are an existing
 material [5% increase]. 3% would be a technology that could be easily adapted to RIC. 15                  15F




 game changer [50% increase]…”              But the principles behind RIC would work for
                                            other kinds of technologies or media. We’ll use
“QR code” as a stand-in for any sufficiently robust and information-rich technology that can
provide the capabilities listed below.16

Initially, the RIC mechanism might involve a smartphone or desktop application easily
downloaded by consumers. The consumers could then use this app to scan a QR code
printed on advertising mail envelopes, thus sending data back to USPS and closing the loop
on the interaction cycle. Embedded in the QR code would be information about:

     Mailer ID (Name & Address)
     Recipient ID (Name & Address)
     Content
     Postage Value
     Information-Coupon Value
     Mail Send Date
     Coupon Expiration Date
Basic operation of the RIC mechanism might function as described below. Not all features
are required. Rather, they represent a menu of design parameters that can be combined to
pursue multiple opportunities within a platform ecosystem. Various incentive levels can be
used to encourage good behavior by all parties. Recipient preferences are captured only
when the recipient redeems the coupon and interacts with the USPS data system.

     1) Mailers buy postage and post a pre-determined Info-Coupon value associated with
        each advertisement they distribute. The pre-determined Info-Coupon value will be
        held in escrow in mailer accounts managed by USPS. Each Info-Coupon value is tied
        to a particular recipient for a particular type of content and mailing.


14 This could require a regulatory change, discussion of which is outside the scope of this paper.
15 Forty-six percent of mobile users are expected to use at least one coupon offer posed via SMS or QR codes.
Statistical Fact Book 2013, Direct Marketing Association, New York, NY, p. 118.
16
   A patent application directed to the proposed technology has been filed.


                                                                                                                 8
Redeemable Info-Coupons                                            Van Alstyne, Parker, Shanker


   2) At their discretion, recipients can redeem Info-Coupons on mail addressed to them.
      If and when a coupon is redeemed, the value of the coupon is transferred from the
      mailer’s account to the recipient’s account. Unredeemed Info-Coupon values simply
      expire, allowing mailers to reuse any monies they have left over.

   3) While redeeming the coupon, recipients can indicate their level of interest in this
      specific ad, this type of content, or this specific mailer. Keenly interested recipients
      could even initiate requests for more of this content, while those who are
      dissatisfied can request less.

   4) In response, USPS can dynamically adjust the postage the mailer must pay to send
                                                future ads with similar content to that
      Stakeholder Interview: “This [feedback    customer. If the customer marked the
      mechanism] is particularly relevant       sender or the content as “unwanted,”
      with smaller and mid-sized businesses     then the Info-Coupon amount necessary
      …[to] create a mail piece that has this   to send similar mail to that recipient
                                                would go up. If mailers continue to ignore
      functionality and utility…to help the
                                                customer preferences, the requisite
      customer with a call to action and        amounts could double. But if the recipient
      content… and provide that information     had designated the content or sender as
      to the client. That is something we think “wanted,” the Info-Coupon charge could
      potentially has value.”                   shrink or vanish.

   5) Interested recipients could interact at a higher level. Whole new classes of business
      services become possible once this information and reward layer is established. For
      a higher Info-Coupon value, recipients could be requested to answer a short survey.
      Keenly interested recipients could be connected directly to a mailer’s website. For a
      different Info-Coupon value, a recipient could be rewarded for forwarding an offer
      to someone they know who might be interested. Mailers could even request
      permission to contact a recipient on another channel, such as a mobile device,
      affording the chance of multichannel marketing.

    6) This process gives mailers precise feedback on individual and aggregate reaction to
       their campaigns. Data can be anonymous or identifiable based on the wishes of
       recipients.
With this rich feedback, mailers can send advertisements that better match the interests of
                                            their customers, not just in content but also
 Stakeholder Interview: “I am surprised     packaging. Response rates go up. The platform
 that some private sector company           becomes even more useful over time as it
 hasn’t developed a RIC system for Direct enables USPS and third parties to offer value-
 Mailers to use in gaining more             added services.
 information about Direct Mailings.”
                                            These are the basic principles behind the

                                                                                                 9
Redeemable Info-Coupons                                                      Van Alstyne, Parker, Shanker


working of the mechanism. Numerous implementations are feasible and actual details will
vary depending on the subtleties and incentives used to motivate information sharing. Over
time, the mechanism could even become more sophisticated, and adjust coupon values
based on implicit as well as explicit preferences. 17 Whereas explicit preferences are those
                                                         16F




specifically declared by recipients, implicit preferences are those based on behavioral cues
such as “people who bought X also bought Y.”

Figure 2 lays out the basic participants and information flows in the proposed RIC
mechanism. It closes an information feedback loop and provides USPS new data.

                       Figure 2. Information Flows in the RIC Mechanism 18          17F




5. BENEFITS OF REDEEMABLE INFO-COUPONS
The Info-Coupon mechanism has the potential to be a win-win-win proposition among
mailers, mail recipients, and USPS. Let us closely examine some of the possible benefits of
this mechanism.


17 Precise elasticities, prices, and Info-Coupon values should be based on formal data analytics. A proper
implementation should also work with an established human factors design firm to ensure ease of use,
security, and adoption based on explicit user testing of design tradeoffs.
18 Mailers may also use intermediaries, as they do today. Participation in the RIC system would be voluntary,

and any formal development of the system would have to address concerns in the Privacy Act (5 U.S.C. 552a).

                                                                                                           10
Redeemable Info-Coupons                                                          Van Alstyne, Parker, Shanker


       A. RECIPIENT PARTICIPATION
The RIC mechanism would create an advanced platform where the mailers form the supply
side, the recipients form the demand side, and USPS is the intermediary. Up to this point,
the demand side of the platform has not really had significant influence over the
functioning of the platform. But couponing makes this possible. Consumers have shown
                                               growing willingness to use coupons, and not
  Stakeholder Interview: “[a redeemable        just print versions. By 2012, more than a
  coupon that rewards consumers]...is          quarter of all coupons were redeemed
  perfect. You reward consumers for            electronically through smartphones.19
  responding. Then you've given a
                                               Info-Coupon would give recipients the ability
  customer incentive…[Secure mapping
                                               and an incentive to signal their preferences on
  between sender and household]...that’s
                                               four different levels. By redeeming a coupon
  cool; if you can pull that off that would be
                                               and indicating aversion, they strongly signal
  great.”
                                               their lack of interest in the content or the
mailer. Or by redeeming a coupon and indicating acceptance, they strongly signal their
interest in the content or the mailer. A third kind of interest is shown indirectly by the
products consumers buy when they redeem their coupons. But even if they take no action,
recipients are sending a message -- a lack of strong interest or disinterest (or either
unwillingness or inability to participate in the platform).

Recipients would not be able to abuse the system to maximize their rewards. If they
expressed a willingness to receive future mailings, their rewards from future mailings
would go down. If they indicated aversion, they would likely receive fewer mailings. The
system is economically self-regulating, so recipients have no incentive to disguise their
interests. By revealing their preferences, they would be investing in the platform, thus
making the postal platform more valuable to them and a true business ecosystem.

       B. AN EFFICIENT INFORMATION ECOSYSTEM
The RIC mechanism would give USPS a digital information ecosystem, one that has the
potential to generate a huge amount of extremely valuable data regarding customer
                                              preferences. Access to and ownership of this
 Stakeholder Interview: “This would help data ecosystem could give USPS a significant
 in identifying different parts of the retail competitive advantage, not just for current
 paradigm and using predictive analysis       mailers but also to attract new customers to
 to drive future activity.”                   advertising mail.

That’s because the ecosystem makes mailings far more efficient. On the face of it, greater
efficiency could mean a lower volume of mailings, in the short run, which could reduce


19   Statistical Fact Book 2013, Direct Marketing Association, New York, NY, p. 128.

                                                                                                          11
Redeemable Info-Coupons                                             Van Alstyne, Parker, Shanker


revenues for the Postal Service. But mailers would gain information not just about which of
the advertisements succeeded, but also about the kind of content people value most. While
the volume of mail might decrease slightly in the short run, better targeting and giving
mailers a higher return on their investments could increase mail volume in the long run.

That makes the postal platform a lot more valuable as an avenue for advertising to the
mailers. As the platform owner, USPS would have the leverage to command a premium for
its services. USPS’s costs per mail piece might actually fall as well. By helping mailers better
target customers, USPS could potentially operate with much more streamlined
infrastructure, with fewer warehouses and trucks. Operating efficiencies could improve.

      C. COMPLEMENTARY SERVICES
We have already highlighted two possible complementary services that could add value to
the platform. First, USPS could get valuable feedback by studying the usage by entities like
                                             advertising agencies that could rent out data,
 Stakeholder Interview: “A postal
                                             with mail recipients’ consent, from the digital
 platform can become a platform for
                                             information ecosystem. Second,
 other services; a better platform that is
                                             complementary services like location-based
 a safe and secure environment that no
                                             advertising could be offered through the mobile
 one else has.”
                                             app used for scanning the QR codes.

As a platform intermediary, a guiding principle for USPS would be to remain open to
innovations around the ecosystem, or even to facilitate such innovations as these could
lead to unforeseen streams of revenue. Such a platform would help USPS partner with
business, fostering “permissionless innovation” like that on the Internet.20 USPS could
                                               establish a marketplace for software
  Stakeholder Interview: “One of the great     applications for extracting insights from the
  values that the Postal Service has is the    ecosystem. These could be developed either
  delivery address. There are opportunities    in house, by mailers or by third party
  around that address. There are services the developers. USPS could also partner with
  Postal Service would be best positioned to   developers to leverage their expertise in
  provide developing services that marry       business analytics. USPS could also,
  hard copy delivery and electronic.”          separately, establish an app store for
                                               recipients and mailers to share and redeem
coupon credits, providing further data on user preferences.

However, given the Postal Service’s long-standing respect for privacy, association with
collaborators and complementors would need to involve a strict emphasis on data
anonymization and encryption. Participation would be entirely voluntary, further allaying


20   See Parker & Van Alstyne 2013.

                                                                                             12
Redeemable Info-Coupons                                               Van Alstyne, Parker, Shanker


privacy concerns. Such measures would serve to increase trust in the platform, and
thereby, attract more mail recipients to adopt the digital postal platform.

Potential Benefit Summary

Stakeholder    Benefit
Recipients     Households and individuals gain a voice in the mail they receive
               Digital access provides simple archival and on demand retrieval of ad
               content
               RIC rates can adjust up or down based on recipient response, discouraging
               unwanted mail
Mailers        Targeting improves with consequent improvements in campaign efficacy
               Physical mail becomes a legitimate portal to mobile customer access. This
               has the quality of permission-based ads, which has higher value. It also
               bypasses spam filters
               Recipients can forward offers to friends or family
               Get fine-grained distinctions among non-respondents, such as: non-delivery,
               not opening the mail, not interested in this product, not interested in this
               seller. Boost response from the missing 94 percent
               Interactivity with previous non-respondents enables complete redesign of
               new approaches and new products
               RIC allows bi-directional initiation, including both advertiser push and
               recipient pull. Recipients can use the system to request ad content on topics
               of special or developing interest as when they intend to purchase home
               furnishings, schedule oil changes, or try new restaurants
USPS           Gain a closed-loop information stream and platform ecosystem allowing
               USPS to compete more effectively with high growth Internet advertising
               Gain a mechanism to merge physical and digital addresses
               New ability to offer value-added business services regarding preferences,
               behaviors, crowding-out, and data analytics
               Product rebates could be deposited directly to user RIC accounts maintained
               by USPS
               Mailers are motivated to comply with recipient wishes based on changes in
               postage costs
               RIC values and information flows create a platform that allows USPS to
               support numerous other businesses as distinct from competing with them
               Avoid Do-Not-Mail list
               Create an Information Market




                                                                                               13
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


6. THE RIC MECHANISM
The Info-Coupon mechanism is grounded in fundamental economic principles. In this
section, we outline the participation incentives for each of the stakeholders and some
enforcement mechanisms. We note again that more advanced technologies could also be
considered so long as they exhibit the technological capabilities outlined in Section 4 on
operation of the RIC mechanism. Today, mailers use various levels of sophisticated analysis
                                                to develop an address list. After mailing, the
 Stakeholder Interview: “It is an exciting      only feedback they get is from customers who
 and potentially valuable concept for           make a purchase or donation, or who redeem a
 improving the Direct Mail marketplace.”        traditional coupon. These tend to be only a
                                                small fraction of recipients (2012 response
rates for letter-sized Direct Mail campaigns from “house lists” averaged 3.4 percent;
response rates from “prospect” lists averaged 1.3 percent). 21 The others fall into an
                                                                    19F




information vacuum. During the next advertising cycle, the process is repeated and
additional mail sent to recipients who will remain non-responsive. With a RIC system,
assuming sufficient opt-ins, it is possible to elicit information from the 94 to 98 percent of
current nonresponders. They can provide basic information such as “I never want to see
this again” or “I may be interested next month, but not now” or "I would like more
information on X product." This feedback can then be used to adjust subsequent mailings.

     A. PARTICIPATION INCENTIVES
The RIC mechanism provides all the stakeholders with incentives for participation.
Although there is some upfront investment in the form of capital and/or learning by each of
the parties, the long-term benefits should outweigh the costs once the mechanism gathers
critical mass. Following are some of the incentive structures at play for each of the
stakeholders:

Mail Recipients
The most obvious and immediate incentive that the RIC mechanism provides in order to
solicit participation from the mail recipients is the choice to redeem Info-Coupons for
merchandise or directly as cash. Recipients could scan the QR code associated with
uninteresting or irrelevant Direct Mail advertisements using a smartphone app.22 When
this occurs, the value associated with that Info-Coupon is automatically transferred from
the mailer’s account to the recipient’s account. By providing the recipients the flexibility to
spend these points or dollars on any merchandise of their choice, the mechanism does not
restrict their choices. Thus, the mechanism aims to provide a monetary incentive for
participation.

21 Yory Wurmser (2012), “2012 Response Rate Report.” See also Statistical Fact Book 2013, Direct Marketing
Association, p. 14.
22 Any system with a camera and access to the Internet could also work.


                                                                                                        14
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


A less obvious, but equally important incentive is provided in the form of better targeting.
As more and more data are gathered about their preferences, recipients could potentially
begin receiving more relevant advertisements, including discounts on goods they purchase
frequently. There is also an opportunity to provide recipients with more relevant location
based offers from local merchants that they might highly value. Furthermore, since the
recipients could be continuously providing feedback regarding their preferences, the
targeting could be adapted to their recent and anticipated needs, thus providing huge
benefits for the recipients in a highly responsive fashion. These benefits would need to be
appropriately articulated when the system is introduced in order to accelerate adoption.

Direct Mail Advertisers
The participation incentives for Direct Mail advertisers (mailers) are less obvious,
especially because this mechanism necessitates an additional initial investment from them
in the form of the Info-Coupon value. However, their incentives can be articulated on three
related fronts. First of all, by participating in the RIC mechanism, the mailers could get
access to much better targeting tools with the data collected by USPS. This could allow
them to reach out to a higher percentage of customers who actually value their products
and services.

Second, mailers’ costs for mistargeting would decline as they achieve higher efficiency.
Third, by participating in the RIC mechanism, advertisers could potentially see which
consumers purchased their merchandise using Info-Coupon points. This could give them
the ability to track their advertising dollars, see which ones actually resulted in sales, and
learn about how to improve on the ones that did not. Thus, the ability to fine-tune
advertisements to obtain better return on advertising investment, coupled with lower
customer acquisition and retention costs, provide the advertisers strong incentives to
participate in the RIC mechanism.

Postal Service
This new RIC mechanism has the potential to be the basis of a highly profitable digital
postal platform. As outlined above, implementing this system could give USPS access to,
and ownership of, a vast tome of valuable data revealing preferences of the mail recipients.
This data could then be utilized to not only motivate efficient advertiser behavior but also
to build an ecosystem of services surrounding that data. Thus, USPS could create alternate
sources of revenue by perhaps providing the advertisers with subscription-based access to
the data. 23 Furthermore, by opening up the ecosystem to developers, USPS could catalyze
          20F




innovations and unforeseen business successes.



23 Yory Wurmser, “2012 Response Rate Report,” and Statistical Fact Book 2013, Direct Marketing Association,
p. 14.

                                                                                                        15
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


     B. ENFORCEMENT MECHANISMS
There are two possible concerns related to enforcement – the mailer side and the recipient
side. The mailer side presents fewer opportunities for concerns, especially because USPS
could control transactions and Info-Coupon values.

Mailers could misrepresent the true content of their mailings, but USPS could correct this
by asking a small random sample of recipients to confirm the category of content claimed
by advertisers. Mailers’ escrow accounts could be forfeited by advertisers that behave
badly in this or other ways.

Another enforcement mechanism could involve the way mail recipients actually indicate
interest in advertising content. They might just signal interest to collect coupons. Then the
cost of sending coupons could decline. The RIC mechanism provides for multiple signals of
interest including strong interest, weak interest, lack of interest, and potentially even
reasons for each category. Polling and follow-up must be carefully designed in cases where
recipients have indicated mail is not wanted. However, as the mechanism matures and
gathers critical mass, there are business opportunities for USPS to offer a content request
service for recipients. For example, someone considering buying a new car could request
information from different advertisers to help make a more informed choice. Such requests
could lead to a direct reduction of informational asymmetries and lead to an immediate
consummation of the match between advertisers and recipients, thereby potentially
resulting in additional revenue streams for USPS.

     C. CHOICE OF QR CODE/OTHER TECHNOLOGIES OVER INTELLIGENT MAIL BARCODE
We strongly recommend using technology at the level of QR codes or higher, rather than
the Intelligent Mail Barcode (IMb) currently in use by USPS. QR codes support more
advanced data fields than the current IMb does, which would enable targeting to specific
individuals. This facilitates development of a trusted and secure platform for
authentication. 24 Since the Redeemable Info-Coupon is data-heavy, it is advisable to adopt
                 21F




technology with higher capacity. Furthermore, more advanced technology could support
additional fields in the future depending on how the ecosystem evolves.

A second important reason for choosing the QR code over IMb is to make things easier for
the mail recipients. While advertisers are familiar with the IMb for use in automation of the
mail sorting and tracking process, mail recipients and general consumers are much farther
along in adoption of QR technology. 25 With mobile device manufacturers incorporating QR
                                         2F




24 Urbanski, Al, “Donahoe’s Postal Vision,” Direct Marketing News, August 1, 2013,
http://www.dmnews.com/donahoes-postal-vision/article/304971/ (accessed August 20, 2013).
25 A search of QR readers on the Apple App Store or Google Android Market turns up dozens of applications

whereas a search of IMb scanner turns up very few.

                                                                                                            16
Redeemable Info-Coupons                                                     Van Alstyne, Parker, Shanker


technology into their smartphones, 26 USPS would have much less need to educate
                                         3F




consumers in the technology. This would accelerate adoption and shorten the time
required to achieve critical mass.

7. OPTIONS FOR MONETIZATION OF THE RIC SYSTEM
Given a platform to support the Info-Coupon system, monetization can rely on multiple
possible revenue streams. It is not necessary or even expected that USPS implement the
RIC system with all the features described here. Rather these illustrate a window into the
range of possibilities for generating revenues with the RIC system.

     1. The increase in targeting efficacy can stem and possibly reverse the decline in
        volume of advertising mail. By using incentives to help provide modest information
        on a large number of non-respondents, marketers could improve their performance,
        encouraging them to engage further with USPS. Importantly, the RIC system gives
        consumers a voice in what they receive, suggesting consumers too will be better off.

     2. USPS can manage sender and receiver escrow accounts. Funds could earn interest,
        be invested, and be managed for additional revenue.

     3. Once RIC authentication is operational, businesses could set up shop on top of the
        RIC platform and conduct any form of e-commerce transaction with recipients they
        have reached by Standard Mail.

     4. Manufacturers that currently pay stores for handling printed coupon redemption
        could now pay for faster and cheaper processing via the RIC system.

     5. Recipient initiated requests for mail become feasible via the RIC application.
        Households that wish to receive brochures on new family cars, catalogs of sports
        clothing, materials for retirement planning, or travel packages could request them
        by category without having to identify specific Mailers. This should increase mail
        volume. As an added consumer benefit, requests could be made anonymously and
        managed via the trusted USPS platform.

     6. The Info-Coupon data layer permits development of new third party apps. These
        could be sold via a RIC app store.

8. PROBLEMS WITH POTENTIAL ALTERNATIVE APPROACHES
Our interviews brought out a few alternative approaches to improve the current system of
advertising mail. None of them, however, boost the efficiency of mailing enough to enable
USPS to compete with online advertising.


26Darrell Etherington, “With iOS7 Apple Shows It Will Tolerate QR Codes – But Not Further Their Cause,” June
12, 2013, http://techcrunch.com/2013/06/12/apple-hate-loves-qr-codes.

                                                                                                         17
Redeemable Info-Coupons                                                  Van Alstyne, Parker, Shanker


     A. PRICE DISCRIMINATION BY ZIP CODE
Price discrimination by zip code involves charging the mailers different rates based on the
zip code of the destination address. Zip codes with wealthier residents, for example, would
command higher rates than others.

Yet this approach still assumes that all advertisements have equal appeal to recipients –
which in turn leads to the inefficiencies that drive the “good” mailers to better targeted
media. By failing to engage the mail recipients in a dialogue, the zip code mechanism also
relies on a blunt form of targeting based on aggregated economic indicators.

     B. DO-NOT-MAIL LISTS
Do-Not-Mail lists serve as filters that allow recipients to block particular senders. Yet they
do not allow recipients to explain why they reject the mail, nor do they communicate the
kinds of mail that do interest recipients. 27 Hence these lists provide much less benefit to
                                             5F




recipients and mailers alike, as compared to a mechanism as interactive as RIC. 28       6F




     C. STANDARD MAIL PRICE INCREASE
A standard mail price increase can be thought of as a flat tax levied on all the mailers. This
mechanism again treats all mailers as if they are equally efficient, and could lead to adverse
selection, eventually driving away the more efficient mailers who use well-targeted lists. A
tax tends to block or disallow messages that the recipients might actually find valuable,
which could result in reduced business for USPS.

     D. MAILER COUPONS
Mailer coupons come closest to providing the benefits of the RIC mechanism. Advertisers
can just use the current system and add coupons that could be redeemed directly by the
end consumers. The mailers can then track which coupons have been redeemed and
understand consumer preferences. However, as far as USPS is concerned, this mechanism
is no different from what currently exists and, hence, does not really address any of the
problems faced by the Postal Service.

9. CONCLUSION
This paper describes one answer to the question of how to enhance the efficacy of
advertising mail and potentially reverse the decline in mail volume. We propose an Info-
Coupon that can provide incentives to participate in an “information layer” that rests on
top of the physical mail distribution system. Our proposed mechanism is grounded in
fundamental principles of information economics.

27Van Alstyne (2007), “Curing Spam, Rights, Signals, and Screens,” The Economists' Voice, April 2007.
28Loder, Van Alstyne, Walsh, “An Economic Response to Unsolicited Communication,” Advances in Economic
Analysis & Policy, Vol 1, No. 6.


                                                                                                     18
Redeemable Info-Coupons                                            Van Alstyne, Parker, Shanker


This mechanism has a number of advantages. First and foremost, it could create a platform
around which to build a business ecosystem. Mailers on one side of the platform and
recipients on the other have strong incentives to participate. Mailers gain dramatic
improvements in information gathering and targeting, response rates, cross-channel
access, and data analytics. Recipients gain a say in the mail they wish to receive, secure
authentication, simplified archival, and direct Info-Coupon compensation. USPS gains
substantial new revenue streams.

Second, this provides not only an electronic opportunity but also a bridge between the
current physical business model and the future digital business model. Recipients can
couple their physical and digital lives via the USPS platform. Such a system has the
potential to help the Postal Service compete with and potentially exceed the appeal of
purely digital systems by taking advantage of cross-platform physical and digital
functionality.

Finally, the economics suggest that the benefits are subject to positive feedback, which
implies the business model could be sustained over time. In short, this need not be a
temporary or one-time fix, but an opportunity for broader USPS growth.

Development of the RIC concept included interviews with a wide range of industry
stakeholders, who indicated interest in such a mechanism if the Postal Service were willing
to implement it. Different technologies have different strengths and weaknesses in terms of
the customer value relationship, and technologies evolve quickly. There was unanimity in
agreement that any technology solutions must be flexible and adaptive; QR codes,
expansion of the IMb, Image Recognition, and other developing technologies should be
accommodated. Although the interviews provided a qualitative element to our research, it
is interesting to note that not one of the stakeholders we talked to discouraged
investigation of print-digital options in the mail market. They all enthusiastically supported
better customer targeting techniques to maximize their campaign response rates. (While
acknowledging that better targeting is needed for mailers, the Postal Service itself was
noncommittal on our specific proposal.)

We also presented alternatives to better serve customers and explain why these are not as
attractive as the RIC mechanism. That said, this paper presents a theoretical solution to an
actual issue. Pursuing such a solution would require detailed analytical work and modeling,
using both high-level models and information from different types of mailers and
stakeholders, whose data and algorithms are usually proprietary and strictly held. Formal
modeling and development of a business plan are beyond the scope of this paper.

We recommend that the advantages of the proposed RIC mechanism be examined in more
formal detail and considered in the context of both an overall postal platform and the
maintenance of Standard Mail health and viability. It is, in our opinion, a valuable potential

                                                                                            19
Redeemable Info-Coupons                                         Van Alstyne, Parker, Shanker


solution, using both traditional print and new digital options. It would boost revenue for
USPS by improving targeting in the main advertising mail market, by encouraging business
development with ecosystem partners, and by encouraging the growth of additional and
more profitable niche markets.




                                                                                         20
Redeemable Info-Coupons                                             Van Alstyne, Parker, Shanker


10. REFERENCES
Ardito, Carrie L. and Rayport, Jeffrey F., (1998), “Frontgate Catalog,” Harvard Business School
Case 9-898-080.

Bult, Jan Roelf and Wansbeek, Tom, (1995), "Optimal selection for direct mail," Marketing
Science, Vol 14, No. 4: 378-394.

Direct Marketing Association, (2013), Statistical Fact Book 2013, New York, NY.

Eisenmann, T., Parker, G. and Van Alstyne, M., (2006), "Strategies for Two-Sided Markets,"
Harvard Business Review, Vol. 84, No. 10.

Eisenmann, T., Parker, G. and Van Alstyne, M., (2011), "Platform Envelopment," Strategic
Management Journal, Vol. 32.

Etherington, D., (2013), “With iOS 7, Apple Shows It Will Tolerate QR Codes – But Not Further
Their Cause,” TechCrunch, Wednesday, June 12th, 2013,
http://techcrunch.com/2013/06/12/apple-hate-loves-qr-codes/.

Gönül, Füsun F. and Ter Hofstede, Frenkel, (2006), "How to compute optimal catalog mailing
decisions," Marketing Science, Vol 25, No. 1: 65-74.

Kim, W. Chan and Mauborgne, Renée, (2005), Blue Ocean Strategy, Harvard Business School
Press.

Loder, T., Van Alstyne, M. and Walsh, R., (2006), “An Economic Response to Unsolicited
Communication,” Advances in Economic Analysis & Policy, Vol 1, No. 6.

Moore, James F., (1993), “Predators and Prey: A New Ecology of Competition,” Harvard
Business Review, May/June 1993.

Parker, G. and Van Alstyne, M., (2005), "Two-Sided Network Effects: A Theory of Information
Product Design," Management Science, Vol. 51, No. 10,
http://people.ischool.berkeley.edu/~hal/Courses/StratTech09/Lectures/TwoSided/ParkerVanAlst
yneMgmtSci2005.pdf.

Parker, G. and Van Alstyne, M., (2012), "A Digital Postal Platform: Definitions and a
Roadmap,” White paper published by the International Post Corporation,
http://www.ipc.be/~/media/Documents/PUBLIC/Markets/MIT_White-
paper_Digital_Postal_Platform.pdf.

Parker, G. and Van Alstyne, M., (2013) “Innovation, Openness & Platform Control” MIT Center
for Digital Business, http://ssrn.com/abstract=1079712.



                                                                                             21
Redeemable Info-Coupons                                              Van Alstyne, Parker, Shanker


Postal Regulatory Commission, (2013), “Annual Compliance Report FY 2012,”
http://www.prc.gov/PRC-DOCS/UploadedDocuments/2012_PRC_ACD_3108.pdf.

PSPrint Corp, “The Economics of Direct-Mail Marketing,”
http://www.psprint.com/resources/direct-mail-marketing-economics/.

Soll, J., (2012), “Smart Mail Proposal,” Stanford Business School technical report.

Urbanski, Al, (2013), “Donahoe’s Postal Vision,” Direct Marketing News, August 1, 2013,
http://www.dmnews.com/donahoes-postal-vision/article/304971/.

USPS, (2011), “Household Diary Study FY 2011,” Table 5.1, http://about.usps.com/studying-
americans-mail-use/household-diary/2011/fullreport-pdf/usps-hds-fy11.pdf.

USPS, (2012), Quarter II, 2012 Report on Form 10-Q, http://about.usps.com/who-we-
are/financials/financial-conditions-results-reports/fy2012-q2.pdf.

USPS OIG, (2011a), “The Postal Service Role in the Digital Age Part 1: Facts and Trends,”
RARC-WP-11-002, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-
wp-11-002.pdf.

USPS OIG, (2011b), “The Postal Service Role in the Digital Age Part 2: Expanding the Postal
Platform,” RARC-WP-11-003, http://www.uspsoig.gov/sites/default/files/document-library-
files/2013/rarc-wp-11-002.pdf.

USPS OIG, (2012a), “State of the Mail,” RARC-WP-12-010,
https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-010.pdf.

USPS OIG, (2012b), “Digital Identity, Opportunities for the Postal Service,” RARC-WP-12-011,
https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-011.pdf.

Van Alstyne, M., (2007), "Curing spam: rights, signals & screens," The Economists' Voice, 4.2.

Van Alstyne, M. and Zatko, S., (2009), "Comment on Jamus Jerome Lim: Markets Can Cure
Spam Zombies," The Economists' Voice, Vol 6, Iss. 9 Article 2.

Wohlsen, Marcus, (2013), “Inside the Postal Startup That Wants to Stick It to the (Mail) Man,”
Wired, Aug 29, 2013, http://www.wired.com/business/2013/08/outbox/.




                                                                                              22
Redeemable Info-Coupons                                    Van Alstyne, Parker, Shanker


AUTHOR CONTACT INFORMATION

Marshall Van Alstyne
Associate Professor Boston University
Research Scientist MIT
595 Commonwealth Ave.
Boston, MA 02215
marshall@mit.edu
Twitter: InfoEcon


Geoffrey Parker
Professor Tulane University – Freeman School of Business
Research Scientist MIT
7 McAlister Dr.
New Orleans, LA 70118
gparker@tulane.edu
Twitter: g2parker


Tushar Shanker
Boston University
595 Commonwealth Ave.
Boston, MA 02215
tshanker@bu.edu




                                                                                    23
RARC-WP-14-002                                                Strengthening Advertising Mail by Building a Digital Information Market




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                                  December 11, 2013
